No.
IN THE SUPREME COURT OF THE UNITED STATES
Frank Gallardo a/k/a/ Frank Ray Thunder Hawk, Petitioner
v.
The United States of America, Respondent.

On Petition For a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit
MOTION FOR LEAVE TO PROCEED

IN FORMA PAUPER'S

The petitioner, Frank Gallardo a/k/a Frank Ray Thunder Hawk, through his
counsel of record, asks leave to file the accompanying petition for writ of certiorari,
without prepayment of costs, and to proceed in forma pauperis. Petitioner's
affidavit is not attached because the court below appointed counsel in the current
proceeding. The appointment was made under Rule 27A(a). A copy of the order of
appointment is appended.
Dated this qday of November, 2020.

Respectfully submitted,

Terry Ldechota
Attorney for Petitioner
1617 Sheridan Lake Road
Rapid City, SD 57702
605-341-4400
Tpechota@1868treaty.comm

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1282
United States of America
Appellee
v.
Frank Ray Gallardo
Appellant

Appeal from U.S. District Court for the District of South Dakota - Rapid City
(5:15-cr-50061-JLV-1)
ORDER
Attorney, Terry L. Pechota is hereby appointed to represent appellant/appellee in this
appeal under the Criminal Justice Act. Information regarding the CJA appointment and
vouchering process in eVoucher will be emailed to counsel shortly.

February 12, 2019

Order Entered under Rule 27A(a):
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-1282 Page: 1

Date Filed: 02/12/2019 Entry ID: 4756018

